     U.S. DEPARTMENT OF COMMERCE
               Office of Inspector General




                    NATIONAL INSTITUTE
                         OF STANDARDS
                      AND TECHNOLOGY
of




                NIST’S Procurement Practices
                Have Improved But Additional
                          Challenges Remain

         Audit Report No. BSD.-16656-5-0001/September 2005




        PUBLIC RELEASE 

                     Office of Audits, Business and Science Division
BSD
U.S. Department of Commerce                                                                                         BSD-16656-5-0001
Office of Inspector General                                                                                              September 2005



                                                   TABLE OF CONTENTS 




EXECUTIVE SUMMARY ...............................................................................................................i                    


INTRODUCTION .............................................................................................................................1 


OBJECTIVES, SCOPE, AND METHODOLOGY...........................................................................3 


FINDINGS AND RECOMMENDATIONS......................................................................................5 


          I.         GREATER EMPHASIS NEEDED ON PROMOTING FULL AND OPEN
                     COMPETITION ........................................................................................................5

                     Justifications for Other Than Full and Open Competition Need to Be
                     Improved ....................................................................................................................6

                     Improved Acquisition Planning Needed....................................................................9

                     Competition Needed in Contracting for Consulting Services....................................10

          II.        PROCUREMENT PROCESSING PRACTICES NEED IMPROVEMENT............11

                     Program Officials Need to Conduct Better Market Research....................................11

                     Contracts Need Required Legal Review....................................................................12

                     Past Performance Reviews Need to Be Conducted and Documented .......................15

                     Basis for Government Estimates Needs to Be Identified...........................................16

          III.       UNAUTHORIZED PROCUREMENTS SHOULD BE ELIMINATED ..................17

          IV.        A SYSTEM FOR ENSURING ACQUISITION STAFF ARE TRAINED
                     NEEDS TO BE ESTABLISHED ..............................................................................19

          Recommendations..................................................................................................................20

APPENDIXES

          Appendix I: NIST’s Table of Services
U.S. Department of Commerce                                                                 BSD-16656-5-XXXX

Office of Inspector General                                                                     September 2005


                                        EXECUTIVE SUMMARY 


NIST relies on contracts and vendors to supply many of the goods and services it needs to
accomplish its mission, spending millions of dollars on procurements ranging from basic office
equipment to specialized scientific instruments and services. In fiscal year 2004, NIST
purchased more than $276 million in products and services, or about 36 percent of its fiscal year
2004 total available resources of $771 million. Within NIST, under the chief financial officer,
the Acquisition Management Division (AMD) is responsible for managing, overseeing, and
supporting NIST procurement operations, including contracts, simplified acquisitions and
delegated procurement via the bankcard program, and for advising customers on acquisition
strategies.

AMD also is responsible for ensuring that all acquisitions of goods and services are in
compliance with various federal laws, regulations, and policies governing procurement
operations and procedures. The Federal Acquisition Regulation establishes uniform policies and
procedures that cover all aspects of procurement and is used by executive agencies. The Office
of Federal Procurement Policy in the Office of Management and Budget, established by
Congress in 1974, provides, among other things, government-wide procurement policies for
agencies to follow in complying with the Federal Acquisition Regulation.

Congress passed the Competition in Contracting Act of 1984 to increase competition and limit
noncompetitive contracting. The act, which applies to all solicitations after March 31, 1985,
limits federal agencies to making noncompetitive awards under seven specified circumstances;
and requires them to justify, certify, and approve in writing all noncompetitive decisions, and to
plan procurements to allow maximum time for obtaining competitive offers. Additionally, in
2002 the president issued an initiative to promote access of small business to government
contracts through full and open competitive procedures.

We conducted a performance audit to determine whether NIST (1) has effective procurement
policies and procedures that comply with laws and regulations, (2) is effectively processing
procurements in accordance with those policies and procedures, and (3) has an adequately
trained acquisition workforce. To accomplish these objectives, we analyzed a random,
judgmental sample of approximately one-third of NIST’s contract awards (new contracts and
task orders) exceeding $100,000 from fiscal year 2002 and from January through June, fiscal
year 2004.1

Our audit found that although NIST’s acquisition policies and procedures comply with laws and
regulations, do not conflict with Department guidance, and generally meet the needs of the
agency’s acquisition team, they do require some modifications as outlined later in this report. We
also noted that the agency has improved some acquisition practices over the two years we
reviewed, and AMD has taken steps to educate acquisition team members about their
responsibilities in the procurement process. However, AMD cannot be successful on its own in

1
  We selected samples from the two different time periods because management of the Acquisition Management
Division changed at the end of fiscal year 2003. Our sample was designed to allow changes in operating practices
instituted by the new management to be reflected in our audit result.



                                                         i
U.S. Department of Commerce                                                                     BSD-16656-5-XXXX
Office of Inspector General                                                                         September 2005

improving the procurement process and needs the active participation and cooperation of NIST
program managers. Therefore, it is important that NIST’s leadership ensures that program
managers actively support AMD’s initiatives to improve agency procurement activities.

Our specific findings and recommendations are as follows:

Greater emphasis is needed on promoting full and open competition. NIST has improved
its use of full and open competition in contracting, but may be missing out on savings and other
benefits that competition promotes because of inadequately justified sole-source procurements, a
lack of acquisition planning, and the methods used in contracting for consulting services. From
interviews with program and contracting staff and review of contract files, we determined that
program staff did not always support competition, preferring instead to work with contractors
they knew or had dealt with previously, necessitating the use of noncompetitive procedures.
Adding to the problem, procurement staff often did not question noncompetitive solicitations or
offer alternatives to encourage competition. We reviewed 92 contract actions totaling $77.2
million from fiscal years 2002 and 2004 out of a universe of 243 contracts totaling $183.7
million. We found that 55 percent or $26.3 million of fiscal year 2004 contracts we reviewed
were competed, and 39 percent or $30.2 million in contracts were competed in fiscal year 2002.
We also noted that there was a lack of competition when contracting for consulting services.
While NIST made progress in competing more contracts in fiscal year 2004 than in 2002, the
overall sample percentage of 42 for contracts awarded using full and open competitive
procedures is low. NIST may be able to further increase competition through improved
acquisition planning and has required agency managers to prepare annual spending plans that
will project upcoming acquisition requirements. (See page 5.)

Program officials need to conduct better market research. NIST program officials−typically
contracting officer’s representatives−are responsible for conducting market research that is
documented in the procurement packages submitted to AMD. Market research is critical for
determining how the contracting officer will process the acquisition as it provides for collecting
and analyzing information about capabilities within the market to satisfy agency needs. It
provides the acquisition’s background, the agency’s needs, a list of potential suppliers,
customary industry terms and conditions, and it forms the basis for justifying the use of other
than full and open competition contracting such as a non-competitive sole-source contract. Of the
39 fiscal year 2002 awards processed under negotiated contract or simplified acquisition
procedures, 11 awards totaling $3,036,650 were not supported by adequate market research as
defined by NIST’s policies and procedures.2 Insufficient market research was a contributing
factor for the poor justifications for contracts processed under other than full and open
competition procedures identified in our review. Market research for fiscal year 2004 awards
processed under the same procedures was adequate. (See page 11.)

Contract actions are often not subjected to required legal review and, when done, legal
comments are not always addressed. Department Administrative Order (DAO) 208-5 requires

2
 NIST’s policies requires the requesting office to prepare a market research report that includes background details
on the acquisition, the agency’s needs, the required schedule for delivery or period of performance, a list of potential
suppliers, the sources contacted and information obtained, customary industry terms and conditions, and the
methodology for obtaining the information.


                                                           ii
U.S. Department of Commerce                                                                    BSD-16656-5-XXXX
Office of Inspector General                                                                        September 2005

the Department’s Office of General Counsel, Contract Law Division, to review the legality of
proposed contract awards including, among other things, negotiated procurements that have a
contract life-cycle expenditure expected to exceed $250,000, and procurements using less than
full and open competition expected to exceed $100,000. Although the General Services
Administration’s Federal Supply Schedule orders and orders placed against indefinite delivery or
indefinite quantity contracts are not specifically mentioned in DAO 208-5, they pose monetary
and performance risks to the government. GSA schedule contracts are general contracts lacking
specificity where the order defines the requirements such as in orders for services. Indefinite
type contracts do not procure or specify a firm quantity of supplies or services but set a minimum
and a maximum order amount that do not always provide an incentive to contain costs. We
therefore applied the legal review criteria to these contracts and orders in our sample, and the
Contract Law Division attorneys agreed with our methodology. We found 37 instances
amounting to $23.7 million, including 28 in fiscal year 2002 and 9 in fiscal year 2004, where
contracts that should have been submitted for legal review were not. Of this amount there were
10 orders amounting to $5.5 million placed against blanket purchase authorizations or indefinite
delivery and indefinite quantity contracts.3 We also found that when legal comments were
received, contract files often did not contain evidence of how or if the legal points were resolved.
The government’s interests may not be protected without adequate legal review. (See page 12.)

Methods needed for conducting and documenting past performance reviews when
evaluating offers. The 1994 Federal Acquisition Streamlining Act states that contracting
officials should consider a potential contractor’s past performance as an indicator of its likely
performance under a new arrangement. The Federal Acquisition Regulation requires
consideration of past performance for negotiated procurements expected to exceed $100,000, and
for acquisition of commercial items. According to the regulation, past performance is also a key
consideration in making best value selections under simplified acquisition procedures and when
making purchases off the Federal Supply Schedules. Neither the Department nor NIST has
specific guidelines for conducting and documenting past performance reviews when evaluating
offers. We found that NIST does not always use past performance in the evaluation process
when making awards. When it does, its methods for documenting and analyzing the information
are inconsistent leaving the quality of the reviews dependent on the expertise of the technical
review teams and contracting staff responsible for each contract awarded. (See page 15.)

Basis for government estimates needs to be established. The Federal Acquisition Regulation
requires agencies to prepare their own, independent estimate of the cost of a proposed
acquisition. Neither the Department nor NIST has specific guidance on how to prepare these
estimates. Though the contracts in our sample contained government estimates, all but the
construction-type requirements did not document the basis for the estimate. Purchase orders for
commercial items did not always note how the estimate was derived--whether it was from a
catalog or from market research, for example. In 14 instances, totaling $3,245,910, government
estimates accompanying purchase requests for supplies or services were exactly the same as the
amount of the contractor’s proposal. (See page 16.)

3
  FAR Subpart 13.303 states that a blanket purchase agreement is a simplified method of filling anticipated
repetitive needs for supplies or services by establishing “charge accounts” with qualified sources of supply. FAR
Subpart 16.501-1 states that indefinite delivery and indefinite quantity contracts do not procure or specify a firm
quantity and provide for the issuance of orders for the delivery of supplies during the period of the contract.


                                                         iii
U.S. Department of Commerce                                                                BSD-16656-5-XXXX
Office of Inspector General                                                                    September 2005

Unauthorized procurements4 should be eliminated. From our discussions with team leaders
in AMD and a review of the unauthorized procurement log, we identified a number of
unauthorized procurements that were approved, or ratified, after the fact. In fiscal year 2002,
NIST processed 46 unauthorized procurement actions based on submitted purchase orders, and
in fiscal year 2004, there were 28 such actions—a total of 74 unauthorized procurement actions.
Additionally, the division issued orders in fiscal year 2002 against blanket purchase agreements
for services where the period of performance was three months prior to the effective date of the
agreements and where the required legal review was not conducted. Although the contracting
officer was aware of these situations, there was nothing in the file to document that the
contracting officer had given the contractor any instructions regarding performance or payment.
Unauthorized procurements leave the government vulnerable and can result in obligating more
funds than available. (See page 17.)

A system for ensuring acquisition staff are trained needs to be established. The Department
of Commerce Acquisition Career Management Program, outlined in Commerce Acquisition
Manual Section 1301.6, implements the Office of Federal Procurement Policy’s Policy Letter on
Procurement System Education, Training and Experience Requirements for Acquisition
Personnel. The program was designed to provide Commerce acquisition employees with the
knowledge, skills, and abilities to do their work. NIST does not have a formal policy for
managing, documenting, and reporting training that meets federal requirements. Although
contracting personnel are taking training, there is no system in place to provide assurance that
staff is completing the required training. (See page 19.)

To resolve the issues we identified in our audit, we made the following recommendations on
page 20:

We recommend that the NIST Director require that the Director, Acquisition Management
Division, take the following actions to improve agency procurement activities.

    1.	 Compete acquisitions whenever possible to fully comply with the Competition in
        Contracting Act of 1984, and provide training to program officials and contracting staff
        regarding the use of competition.

    2.	 Minimize sole-source procurements by ensuring that the required justification form, CD
        492, Justification for Other Than Full and Open Competition, is completed and
        adequately documented, and provide training to program officials on how to adequately
        justify a procurement when using other than full and open competition.

    3.	 Revise market research guidelines and provide training to help program personnel
        conduct effective market analysis.



4
  An unauthorized commitment, as defined in Federal Acquisition Regulation, Subpart 1.602-3, is an agreement that
is not binding solely because the government representative who made it lacked the authority to enter into the
agreement on the government’s behalf. Ratification is the act of approving an unauthorized commitment of funds
by an official who has the authority to do so.


                                                       iv
U.S. Department of Commerce                                                    BSD-16656-5-XXXX

Office of Inspector General                                                        September 2005


   4.	 Work with the Office of General Counsel, Contract Law Division to (1) consider
       developing legal review criteria for General Services Administration’s Federal Supply
       Schedule orders, and orders placed on Blanket Purchase and Ordering Agreements, and
       on Indefinite Delivery or Indefinite Quantity contracts; and (2) develop and implement a
       policy for resolving legal comments on contract actions.

   5.	 Develop procedures for conducting and documenting past performance reviews, using the
       Office of Federal Procurement Policy’s guidebook as a reference and provide training to
       program officials and contracting staff.

   6.	 Develop procedures for preparing independent government estimates for the various
       types of acquisitions and provide training to program officials and contracting staff.

   7.	 Establish and implement an aggressive campaign to eliminate unauthorized procurement
       actions through training sessions, communication efforts, and establishing responsibility.

   8.	 Develop procedures for managing, documenting, and verifying training for acquisition
       staff to ensure compliance with requirements detailed in Section 1301.6 of the Commerce
       Acquisition Manual.

We also recommend that the NIST Director ensure that program managers actively support
AMD’s initiatives to improve agency procurement activities, and that NIST managers adequately
prepare annual spending plans for fiscal year 2005 and quarterly updates to help the agency
provide more responsive, effective, and efficient acquisition services and ensure compliance with
federal regulations.




                                                v
U.S. Department of Commerce                                                    BSD-16656-5-XXXX

Office of Inspector General                                                        September 2005


                                       INTRODUCTION 


Founded in 1901, the National Institute of Standards and Technology (NIST) is part of the
Commerce Department’s Technology Administration and serves as the federal focal point for
researching and developing measurements, standards, and related technologies. For fiscal year
2004, NIST resources totaled approximately $771 million—$609 million from appropriations,
$122 million from work performed for other federal agencies, and $40 million from user fees.
NIST has approximately 3,000 employees located in Gaithersburg, Maryland, and Boulder,
Colorado.

NIST relies on contracts and vendors to supply many of the goods and services it needs to fulfill
its mission, spending millions of dollars annually on procurements ranging from basic office
equipment to specialized scientific instruments and services. In fiscal year 2004, NIST spent
more than $276 million—36 percent of its total resources—on products and services. Within
NIST, under the chief financial officer, the Acquisition Management Division (AMD) is
responsible for managing, overseeing, and supporting NIST procurement operations, including
contracts and simplified acquisitions or other bankcard purchases, and for providing acquisition
advice to program staff involved in the procurement process.

AMD also is responsible for ensuring that all acquisitions of goods and services are in
compliance with various federal laws, regulations, and policies governing procurement
operations and procedures. The Federal Acquisition Regulation establishes uniform policies and
procedures that cover all aspects of procurement and is used by executive agencies. The Office
of Federal Procurement Policy in the Office of Management and Budget, established by
Congress in 1974, provides, among other things, government-wide procurement policies for
agencies to follow in complying with the Federal Acquisition Regulation.

Congress passed the Competition in Contracting Act of 1984 to increase competition and limit
noncompetitive contracting. The act, which applies to all solicitations made after March 31,
1985, and the Federal Acquisition Regulation require federal agencies to:

   •	 Make noncompetitive awards under only seven specified circumstances (detailed on page
      7 of this report).

   •	 Justify, certify, and approve in writing all noncompetitive decisions.

   •	 Plan procurements to allow maximum time for obtaining competitive offers.

   •	 Search the marketplace and, at a minimum, publish notices of proposed noncompetitive
      contract awards in the Commerce Business Daily, specifying needs and soliciting
      inquiries.

   •	 Designate advocates for competition.




                                                1

U.S. Department of Commerce                                                          BSD-16656-5-XXXX
Office of Inspector General                                                              September 2005

Other reform initiatives followed, including the Federal Acquisition Streamlining Act of 1994
and the Clinger-Cohen Act of 1996. These were intended to reduce the time and money spent
purchasing needed goods and services by replacing cost reimbursement contracts with firm
fixed-price performance-based contracts, promoting greater use of commercially available
products, and encouraging simplified acquisition methods such as credit card purchases of
supplies and services valued up to $100,000. Additionally, in 2003, the president issued an
initiative to promote access of small business to government contracts through full and open
competitive procedures. The initiatives reduced the types of management reviews and oversight
required for individual contracts and gave contracting officers more latitude to determine the
acquisition method and the amount of documentation needed to justify their decisions.

While these streamlined acquisition processes have helped contracting offices serve their
customers—program staff—more efficiently, the processes may expose agencies to
mismanagement and abuse. Basic acquisition principles--careful planning, appropriate levels of
competition, skillful negotiations, well-structured contracts, and effective contract
management—must be followed to ensure taxpayer dollars are wisely spent and laws and
regulations followed.

The Government Accountability Office and the Office of Federal Procurement Policy have
recently identified problems with the government’s streamlined procurement process, including
questionable and even illegal purchases made with government credit cards, lack of competition
in the award of government contracts, and contracts that do not focus on results. Past OIG work
found problems with the Department’s implementation of performance-based contracting;
insufficient contract administration; and inadequately trained contracting officers and technical
representatives.1




1
 OIG Report ATL-12319-1-0001, NWS National Data Buoy Center’s Evaluation of Technical Services Contract
Was Inadequate, dated 3/28/2001; and OIG Inspection Report OSE-15676, Acquisition of NEXRAD Transition
Power Source Marred by Management, Technical, and Contractual Problems, dated September 2003.


                                                    2

U.S. Department of Commerce                                                                   BSD-16656-5-XXXX

Office of Inspector General                                                                       September 2005


                          OBJECTIVES, SCOPE, AND METHODOLOGY 


We sought to determine whether NIST (1) has effective procurement policies and procedures
that comply with laws and regulations, (2) is effectively and efficiently processing procurements
in accordance with those policies and procedures, and (3) has an adequately trained acquisition
workforce to process procurements. To accomplish these objectives, we

    •	 Examined NIST’s policies and procedures for processing and managing procurement
       actions in effect at the time of our review, as well as relevant federal laws, regulations,
       and guidelines, including the Federal Acquisition Regulation.

    •	 Analyzed a random, judgmental sample of approximately one-third of NIST’s contract
       awards (new contracts and task orders) exceeding $100,000 from fiscal year 2002 and
       from January through June, fiscal year 2004.2 For fiscal year 2002, from a universe of
       185 awards totaling $63,750,103, we selected 72 awards in the amount of $48,163,920
       for review. For fiscal year 2004, from a universe of 58 awards totaling $119,953,625, we
       selected 20 contracts in the amount of $29,074,878 for review. There were a total of 92
       contracts selected for review. The sample included negotiated contract awards and
       awards made under Section 8(a)3 of the Small Business Act, the General Services
       Administration’s Federal Supply Schedules, and simplified acquisition procedures.

    •	 Examined individual contract actions equal to or less than $100,000 where the total
       actions awarded per vendor during the period January through June 2004 exceeded
       $100,000. There were nine such vendors with awards totaling $2,748,273.

    •	 Looked for evidence of “split acquisitions”—that is instances in which NIST broke a
       single acquisition totaling more than $100,000 into two or more smaller purchases less
       than $100,000 to circumvent spending limits.

    •	 Reviewed fiscal year 2004 training records for contracting personnel in the Acquisition
       Management Division and any NIST policies and procedures to manage training, as well
       as the Commerce Acquisition Manual, Chapter 1301.6.

    •	 Identified the contracting officer representatives (COR) assigned to the fiscal year 2004
       sampled contract awards and reviewed COR training records.

2
  We selected samples from the two different time periods because management of the Acquisition Management
Division changed at the end of fiscal year 2003. Our sample was designed to allow for changes in operating
practices instituted by the new management to be reflected in our audit result. During the audit, we coordinated with
the Director of Acquisition Management Division, as well as the Acting Director while the Director was out;
however, throughout the report, we have used only the term “Director.”
3
  The 8(a) program is designed to help socially and economically disadvantaged individuals obtain a share of the
federal procurement dollar. The title "8(a)" derives from Section 8(a) of the Small Business Act of 1953, as
amended. Through this program, the government enters into contracts with the Small Business Administration
(SBA), and SBA subcontracts the work to an eligible 8(a) firm, a three-party contract that contains the signature an
SBA official, SBA's contractor and the agency’s contracting officer. For each requirement identified by the agency
to be fulfilled via the 8(a) program, the contracting officer must prepare an offering letter to SBA.



                                                         3

U.S. Department of Commerce                                                                BSD-16656-5-XXXX
Office of Inspector General                                                                    September 2005

We interviewed NIST’s AMD director, managers, and contracting personnel, as well as program
officials who request and manage procurements. We also interviewed attorneys in the
Department’s Office of General Counsel, Contract Law Division4 and officials in the Department
of Commerce’s Office of Acquisition Management. During the course of our review,
procurement personnel reported that the need for approval (i.e., ratification) of unauthorized
purchases is a frequent problem at NIST, and we performed limited procedures to confirm
whether such a problem does exist.

We evaluated NIST’s internal controls related to processing and managing procurements and
found them for the most part to be adequate. Any exceptions are described in detail in the body
of the report. During the review, we were provided computer-generated data for contracts
awarded during fiscal year 2002 and fiscal year 2004 from which we selected our samples. We
verified the data’s reliability by comparing the data fields from NIST’s computer-generated
report on the fiscal years 2002 and 2004 contracts in our audit sample against the actual contract
documents. We concluded that the computer-generated data were reliable.

We conducted our audit from February 2004 through January 2005 at the NIST campus in
Gaithersburg, Maryland, performing our work in accordance with generally accepted
government auditing standards, under authority of the Inspector General Act of 1978, as
amended, and Department Organization Order 10-13, dated May 22, 1980, as amended.




4
 Throughout this report, references to the Office of General Counsel mean the Contract Law Division within the
Department of Commerce’s Office of General Counsel.



                                                        4

U.S. Department of Commerce                                                                BSD-16656-5-XXXX

Office of Inspector General                                                                    September 2005


                              FINDINGS AND RECOMMENDATIONS

Our audit revealed that although NIST’s acquisition policies
and procedures comply with laws and regulations, do not              NIST’S PROCUREMENT GUIDANCE
conflict with Department guidance, and generally meet the       Subchapter 2.03 of NIST’s Administrative
needs of the agency’s acquisition team, NIST does not           Manual contains the agency’s policies and
always properly apply these policies and procedures when        procedures for conducting acquisitions. The
acquiring goods and services. Additionally, these procedures    Acquisition Management Division recently
require some modifications. Specifically, we found a lack of    updated the subchapter to be consistent with
                                                                current acquisition policies and procedures
competitive contracting, missing or inadequately                and with guidance in NIST’s Table of
documented justifications for sole-source procurements, a       Services (TOS) posted on its intranet site
lack of procurement planning, inadequate market research,       (http://www-i.nist.gov/admin). The TOS is a
failure to seek legal review of contract agreements,            user friendly list of services with hyperlinks
insufficient documentation of contractors’ past performance,    to a myriad of acquisition topics important to
                                                                all members of the acquisition team:
and ill-defined procedures for developing independent           procurement forms, competition
government price estimates. We also found that                  requirements, sole source procurements,
unauthorized procurements pose a serious problem as they        service contracting, technical review panels,
must be ratified after the fact. Further, although NIST does    small business set asides, and other topics.
have an adequate system for tracking and managing the           (See Appendix I.) It also contains links to
                                                                useful training and program information for
contracting officers’ representatives’ training, the agency     contracting officer’s representatives.
does not have a system for ensuring that acquisition staff are
meeting all training requirements. Our review did not reveal any situations where NIST was
splitting requirements into multiple awards and circumventing procurement policy.5

We noted that the agency has improved some acquisition practices over the two years we
reviewed, and AMD has taken steps to ensure acquisition team members understand their
responsibilities in the procurement process by providing guidance to new managers and program
officers. However, AMD needs the active participation and cooperation of NIST program
managers. Therefore, it is important that NIST’s leadership ensures that program managers
actively support AMD’s initiatives to improve agency procurement activities. Additionally, we
believe NIST needs to further enhance acquisition guidance to provide information on
conducting market research, using a contractor’s past performance as a part of the selection
process, developing independent government estimates, updating its internal legal review
criteria, and establishing policies to track and monitor procurement staff training.

I. 	GREATER EMPHASIS NEEDED ON PROMOTING FULL AND OPEN
    COMPETITION

Federal Acquisition Regulation, Part 6 requires contracting officers to promote and provide for
full and open competition in awarding government contracts and to adequately justify
noncompetitive awards. The Competition in Contracting Act of 1984 requires federal agencies
to increase competition and limit noncompetitive solicitations. In 2002, the President reinforced
the act by issuing an initiative calling for more competition in government contracting. NIST’s

5
 For example, simplified acquisition procedures (applicable for purchase up to $100,000 and for commercial items
up to $5,000,000 including options, Federal Acquisition Regulation, Subpart 13), legal reviews, and certain
clearances.


                                                        5

U.S. Department of Commerce                                                                   BSD-16656-5-XXXX
Office of Inspector General                                                                       September 2005

internal guidance requires competition for open market procurements greater than $100,000.
The guidance provides that orders over $2,500 made under the General Services
Administration’s Federal Supply Schedules must be competed among at least three vendors.

Our review disclosed that although NIST has improved its use of full and open competition in
contracting, it may be missing out on the savings and other benefits that competition promotes
because of problems with the use of sole-source procurements, a lack of acquisition planning,
and the methods used to procure consulting services. From interviews with program and
contracting staff and review of contract files, we determined that program staff was not always
open to competition, preferring instead to work with contractors they knew or had dealt with
previously. Further, procurement staff often did not question noncompetitive solicitations or
offer alternatives to encourage competition. We reviewed 92 contract actions that exceeded
$100,000 from fiscal years 2002 and 2004 (table 1) and found that 55 percent of fiscal year 2004
contracts we reviewed were awarded based on full and open competition procedures, compared
with 39 percent in fiscal year 2002.

                                 Table 1: Distribution of Audit Sample
Fiscal         Sampled
                                        Contracts Competed                      Contracts Not Competed
Year          Contracts6
             Number   Dollars   Number     Percent    Dollars    Percent   Number      Percent    Dollars   Percent
    2002       72     48.1M        28         39       30.2M       63         44         61       17.9M        37
    2004       20     29.1M        11         55       26.3M       90          9         45        2.8M        10
    Totals     92     77.2M        39         42       56.5M       73         53         58       20.7M        27

Though NIST’s track record has clearly improved over time, efforts should continue to increase
the use of full and open competition procedures. AMD is working with program managers to
encourage competitive procurements, but it must emphasize the potential benefits of full and
open competition to ensure that competition occurs whenever possible, acquisitions are
adequately planned, and noncompetitive acquisitions are sufficiently justified. Outreach and
training provided by AMD to customers and support from NIST’s key managers are essential to
expanding the use of competition.

Justifications for Other Than Full and Open Competition Need to Be Improved

The Department of Commerce is authorized by 41 USC 253(c) to contract without providing for
full and open competition in certain situations; however, procurements processed under these
exceptions must be supported by a detailed written justification that cites the specific authority.
Federal Acquisition Regulation, Part 6 identifies seven statutory authorities for contracting
without full and open competition, as follows:

       ¾ The product or service is available from only one responsible source.




6
 Audit universe for fiscal year 2002 was 185 contract actions totaling $63,750,103. Audit universe for fiscal year
2004, January through June, was 58 contract actions totaling $119,953,625


                                                         6

U.S. Department of Commerce                                                    BSD-16656-5-XXXX
Office of Inspector General                                                        September 2005

   ¾	 The agency’s need could not have been anticipated and is of such unusual and compelling
      urgency that the agency will be seriously injured if the award is not made quickly.

   ¾	 A particular source is needed to maintain a facility in case of national emergency, to
      achieve industrial mobilization, or establish or maintain essential engineering, research,
      or development capability.
   ¾	 Competition is precluded by the terms of an international agreement or treaty with a
      foreign government or international organization.

   ¾	 A particular source is mandated by statute (e.g. Federal Prison Industries, Committee for
      Purchase from People Who Are Blind or Severely Disabled).

   ¾	 Disclosure of an agency’s needs would compromise national security.

   ¾	 The head of an agency determines that competition is not in the public’s best interest and
      gives Congress 30 days’ written notice.

To complement Federal Acquisition Regulation, Part 6, NIST guidance requires that form CD
492—Justification for Other than Full and Open Competition—be prepared for all competition-
restricted procurements. This includes open market procurements awarded under negotiated
contract or simplified acquisition procedures, as well as all sole-source orders placed under
Federal Supply Schedules. Awards to SBA “8a” contractors are made under specific statutory
authority and do not require a CD-492.

The CD-492 must provide the following information: (1) the authorized exception from
competition; (2) descriptions of the supplies or services, the proposed contractor’s unique
qualifications, efforts made to ensure that offers are solicited from as many potential sources as
practicable, and the market survey; (3) the actions the agency plans or has taken to overcome any
barriers to competition; and (4) the contracting officer’s certification that the justification is
accurate and complete.

The noncompetitive contracts we reviewed were not always supported by adequately
documented CD-492s or the CD-492s were missing. We sampled 92 contract actions, of which
53 were awarded using other than full and open competition procedures. All 53 of these actions
were sole-source contracts. Thirty-five of these—all made in fiscal year 2002—required CD
492s, but in 24 instances the CD-492 justification forms prepared to support the sole source
procurements were inadequately documented, and in two cases, the CD-492s were missing from
the contract file. (See table 2.) We did not find problems with the support for the FY 2004 sole
source procurements in our sample. However, Office of General Counsel advised that they
encountered problems in 2004 when reviewing sole source procurements where the CD-492,
Justification for Other than Full and Open Competition, did not contain sufficient documentation
to justify the use of other than full and open competition procedures or where a CD-492 was not
prepared when one was needed. They provided us with copies of these actions to support their
position. Although these actions were outside of our sample, we reviewed the actions and agreed
with their conclusions.




                                                7

U.S. Department of Commerce                                                                     BSD-16656-5-XXXX

Office of Inspector General                                                                         September 2005




                Table 2: INADEQUATE JUSTIFICATIONS (Fiscal Year 2002)
     Award Methodology          Total      Total Value          Number        Dollar Value of     Percent
                               Number       Requiring          Deficient or   Deficient CD        Deficient
                              Requiring      CD-492             Missing             492
                               CD-492
    Federal Supply                    17     $4,578,715                 16         $4,474,850             94
    Schedule
    Simplified Acquisition/          18       4,636,221                 10          2,212,045             56
    Negotiated
    Total                            35      $9,214,936                 26         $6,686,895             74

Of the 53 contracts awarded using other than full and open competition, three were awarded
based on unusual and compelling urgency; 12 were authorized or required by statute,7 seven did
not indicate the exception under which they were awarded, one was a task order that was not
subject to the justification requirements, and 30 (67 percent) were awarded under the authority
that only one responsible source could satisfy agency requirements. The “one responsible
source” authority is appropriate when impediments to full and open competition exist, even
though there may be more than one potential source. The single, most important component of
justifications citing this authority is comprehensive market research to validate the specified
source’s unique capabilities. Based on this research, the justification must thoroughly describe
the qualifications that render the designated source the only appropriate supplier. For the awards
we reviewed, the “one responsible source” authority was generally not adequately supported on
the CD-492.8 For example:

       •	 The CD-492 for a $150,000 services contract included the following three-sentence
          justification: “This is the only known source for this activity. The XXX has established
          existing relationships with all 50 states. Therefore, to our knowledge, the XXX is the
          only group that can assist states by offering assistance at the highest levels of state
          government.” There was no evidence of any market research to support the statement.

       •	 For a $135,000 award for services to provide workshops, the CD-492 provided
          information as to why the chosen contractor could do a good job, but never addressed
          why a market survey was not conducted to determine whether another contractor might
          be equally capable.

AMD managers told us that they are emphasizing the importance of competition when working
with program staff and are reviewing sole-source procurement requests and accompanying
justifications to determine whether competition is possible. Customers confirmed during
interviews that the contracting staff questions sole-source procurements, will normally ask for
additional supporting information, and will work to structure requirements to make competition
possible.

7
  This number includes 11 contracts that were awarded under the Small Business Administration 8(a) program, and
1 awarded to the Federal Prison Industries (UNICOR), which is a mandatory source per Federal Acquisition
Regulation, Subpart 8.6.
8
  See page 18 for two examples of the use of “one responsible source” as the authority to make sole source awards
for copier and telephone services.


                                                          8

U.S. Department of Commerce                                                     BSD-16656-5-XXXX
Office of Inspector General                                                         September 2005

The contracting officer is responsible for promoting and providing for full and open competition,
unless any of the seven authorized exceptions apply. Should a sole-source procurement be
warranted, contracting officers must work with program officials to ensure compliance with
existing guidance, and prepare and sign a CD-492 documenting the exception and attesting to the
adequacy of the justification. Training sessions should be provided to program officials to
enable them to prepare a well-supported justification. A well-supported, valid CD-492 is NIST’s
assurance that it is in compliance with the Competition in Contracting Act and is valuable in the
government’s defense against a company protesting a NIST contract award.

Improved Acquisition Planning Needed

One hindrance to competition has been a general lack of procurement planning even though the
Competition in Contracting Act and the Federal Acquisition Regulation require it. Subpart 7.102
of the regulation requires that agencies perform acquisition planning for all procurements in
order to promote acquisition of commercial items and to promote competition to the maximum
extent practicable to ensure that the government meets its needs in the most effective,
economical, and timely manner. Although the Commerce Acquisition Manual requires formal,
detailed acquisition plans for procurements estimated to exceed $5,000,000, it also requires
planning for all other acquisitions with the degree determined by the size, scope and complexity
of the acquisition. Additionally, DAO 208-15 states that effective planning (1) provides lead
time to allow for a thorough search for all potential contractors, (2) distributes procurement
activity and actions more evenly over the fiscal year, (3) consolidates similar product or service
requirements for multiple customers or multiple procurements and (4) enables agencies to
allocate procurement funds more precisely and effectively.

We determined from our review of contracts and discussions with AMD staff that NIST has not
performed adequate procurement planning. During our discussions with the Director of AMD,
she stated that she has had problems getting fairly basic planning information from the program
offices. She attributed this to her customers generally not understanding what encompasses good
acquisition planning as they are very involved in the science and less attentive to administrative
details. It is possible that the 53 contracts from our sample of 92 processed under other than full
and open competition procedures could have been significantly reduced had sufficient
acquisition planning taken place at NIST. Planning would have allowed time to conduct a
thorough search for all potential contractors in order to identify whether other possible sources
were available to create competition. Additionally, improved planning could allow procuring
offices sufficient time to announce procurements, and to gather and evaluate the competitive
offers.

NIST’s chief financial officer issued Administrative Bulletin No. 04-03 on February 9, 2004,
defining the acquisition submission guidelines for program offices to use when scheduling their
procurement actions for the fiscal year. This was done in an effort to ensure that sufficient time
was allowed for processing procurements. However, the directive did not require offices to
prepare an acquisition plan outlining projected procurement requirements and a spending plan
for AMD.




                                                 9

U.S. Department of Commerce                                                                 BSD-16656-5-XXXX
Office of Inspector General                                                                     September 2005

NIST has recognized the importance of acquisition planning and has taken actions to make
improvements. On December 30, 2004, NIST’s CFO asked agency managers to prepare annual
spending plans for fiscal year 2005, with quarterly updates to help the agency provide more
responsive, effective, and efficient acquisition services and ensure compliance with federal
regulations. The spending plan requires managers to:

    •	 Identify projected procurement requirements.

    •	 More effectively utilize staffing and resources by submitting requirements

       proportionately throughout the fiscal year. 

    •	 Significantly decrease the number and dollar amount of unauthorized procurements.

    •	 Facilitate contract consolidation and more favorable contract arrangements, thereby
       leveraging NIST’s buying power and minimizing administrative processing costs.

Projections of upcoming acquisition requirements will enable AMD staff and program managers
to facilitate opportunities for competition and have adequate time to process the acquisition.
NIST needs to ensure that program offices understand the need to communicate openly with
AMD and that AMD coordinates with NIST managers to make sure that the plans contain useful
data and accurate projections of procurement requirements. AMD should use the data contained
in the plans to improve the procurement process and increase competition.

Competition Needed in Contracting for Consulting Services

During our review, we were informed by an AMD manager that NIST has historically contracted
on a sole-source basis for scientific and technical expertise with leading scientific experts
including former NIST employees. In an effort to appropriately address NIST’s scientific
consultant needs, AMD began contracting with a consulting firm under the 8(a) Small Business
Administration program. AMD managers stated that the contractor was supposed to have an
extensive listing of scientists available from which it would be able to identify qualified
personnel when responding to NIST’s task order requirements. NIST would then select a
resource from the listing the contractor provided. However, this did not take place. During the
review period, NIST issued 23 individual purchase orders to the firm. Additionally, NIST
awarded a blanket ordering agreement (BOA)9 to the same consulting firm as a direct award,
non-competitively, under the 8(a) program and awarded 7 task orders under the BOA. Of the
total 30 orders placed with the contractor during the period, 17 purchase orders and all seven task
orders specified a government-referred resource.10 In each of these instances, the contractor
provided its proposal with the government-referred resource identified as the contractor’s key
personnel.



9
  A basic ordering agreement may be used when the same services are needed on a recurring basis. Its purpose is to
expedite future contracting actions by performing the initial steps in the contractor selection process before a
particular service is needed.
10
   A government-referred resource is personnel NIST specifies to the contractor as being capable to accomplish the
task.


                                                        10

U.S. Department of Commerce                                                       BSD-16656-5-XXXX
Office of Inspector General                                                           September 2005

NIST stated that the consulting firm would not be directed to hire specific personnel to work
under a task order, but that only a suggested source would be provided with the contractor being
responsible to find the qualified candidates. However, as noted previously, in 24 of 30 orders,
the contractor’s key personnel were the government-referred resources identified by NIST with
no additional candidates identified by the contractor.

The Office of General Counsel’s attorney who reviewed the awarding of the BOA expressed
concerns regarding the award of the BOA and these comments are part of the BOA contract file.
The attorney raises issues regarding NIST designating resources, the possible creation of
personal services relationships, and the use of the contractor as primarily a recruiting and labor
placement agency. The Office of General Counsel’s attorney further stated that the contractor
did not have demonstrated scientific and technical expertise to supervise the day-to-day work of
the personnel it placed at NIST as, from a review of the company’s website, the company had
experience primarily with information technology and specialized engineering services. As a
result, the effective supervision of the consultants would be by NIST and not by the contractor.

In addition to the issues raised by the Office of General Counsel, we are concerned that NIST did
not take the necessary steps to ensure adequate competition as only one BOA was awarded,
noncompetitively, and the task orders were awarded based on the resource identified by the
government. Additionally, when issuing task orders, the contractor has not provided a listing of
qualified personnel from which NIST may make a selection but rather has provided NIST with
the personnel that NIST has specifically identified as the government-referred
source−eliminating the contractor’s need to identify any additional sources that could meet the
requirements.

The AMD director stated that since our examination of the consulting firm orders, NIST has
prepared an acquisition plan to replace the current BOA, and the Department’s acquisition
review board is reviewing the plan. The Director stated that the current BOA will be replaced
with one or more BOAs and that the process will be conducted using full and open competition.
Until the new contract is in place, the division director stated that the existing consulting firm is
being used and the firm has hired a highly qualified employee to manage the task order
assignments. Although we did not perform a complete audit of the manner in which NIST
contracts for consulting services, the Office of Inspector General reserves the right to address
this area in a future review.

II. PROCUREMENT PROCESSING PRACTICES NEED IMPROVEMENT

Program Officials Need to Conduct Better Market Research

Federal Acquisition Regulation, Part 10 expressly requires market research as an initial step in
the acquisition process for all contracts in excess of $100,000. Agencies use market research to
determine if there are sources or commercial items available that can satisfy their requirements,
or can be modified to meet those requirements. Such research is critical to how the contracting
officer will process an acquisition or for justifying the decision to limit or forgo competition.




                                                  11

U.S. Department of Commerce                                                                    BSD-16656-5-XXXX
Office of Inspector General                                                                        September 2005

For example, if research establishes that suitable commercial items or services are available, the
policies and procedures at Part 1211 of the regulation must be followed.

NIST program officials—normally acting as contracting officer’s representatives—are
responsible for conducting market research and including their findings in the procurement
package submitted to AMD.12 However, we found that of the 39 fiscal year 2002 awards
processed under negotiated contract or simplified acquisition procedures, 11 awards totaling
$3,036,650 were not supported by adequate market research. We did not find problems with the
market research conducted in the 20 contract files we reviewed from FY 2004.

AMD’s Table of Services (see Appendix I) links to a market research report form, on which
contracting staff are to document their research findings, including background details on the
acquisition, the agency’s needs, the required schedule for delivery or period of performance, a
list of potential suppliers, the sources contacted and information obtained, customary industry
terms and conditions, and the methodology for obtaining the information. However, the contract
files we reviewed frequently did not contain the required information. AMD customers told us
that they were confused by the market research requirement, and by the report form and
associated instructions. They were also unsure about how to obtain some of the information
required on the report form. We discussed these problems with the division director, who stated
that she is aware of the difficulties, is updating the instructions and report form, and will provide
training to the program staff.

Contracts Need Required Legal Review

Department Administrative Order 208-5 establishes review and approval requirements applicable
to the exercise of contracting authority, including legal review by the Office of General
Counsel.13 Legal review of proposed contract awards is required for, among other things:

     •	 Negotiated procurements for which the contract life-cycle expenditure is expected to
        exceed $250,000. For indefinite delivery and indefinite quantity14 contracts, all
        solicitations and awards for which the contract life-cycle maximum amount exceeds
        $250,000, and for requirements contracts with life-cycle estimates above $250,000.

     •	 Contracts using less than full and open competition, including SBA 8(a) contracts for
        which the expected award exceeds $100,000.

11
   Federal Acquisition Regulation, Part 12 prescribes the policies and procedures unique to the acquisition of

commercial items—policies more closely resembling those of the commercial marketplace. 

12
   Generally, the detailed market research needed for negotiated contracts is not required for contracts awarded using 

the Federal Supply Schedules or under the Small Business Administration’s 8(a) program.

13
   The Department’s Office of General Counsel, Contract Law Division, has posted the Department of Commerce 

Legal Review Thresholds on the Department’s web site at the location

www.ogc.doc.gov/pdfs/LegalReviewThresholds1.pdf. 

14
   Federal Acquisition Regulation, Subpart 16.501 provides for three types of indefinite-delivery contracts: definite-

quantity, indefinite quantity, and requirements contracts. These contracts are used when a need has been identified 

but the precise quantity and delivery requirements are not known at time of award. Orders known as task or delivery 

orders are placed under the contracts. 



                                                         12

U.S. Department of Commerce                                                                BSD-16656-5-XXXX
Office of Inspector General                                                                    September 2005

The Administrative Order does not expressly require legal review of GSA Federal Supply
Schedule orders. Additionally, even though indefinite delivery and indefinite quantity contracts
meeting specific criteria are required to be reviewed by the Administrative Order, orders issued
against these contracts are not expressly subject to legal review. However, these orders can pose
monetary and performance risks to the government.15 GSA supply schedule contracts are
general contracts lacking specificity where the order defines the requirements such as in orders
for services. Indefinite type contracts do not procure or specify a firm quantity of supplies or
services but set a minimum and a maximum order amount that do not always provide an
incentive to contain costs. As a result, we applied the criteria to these contracts and orders in our
sample. We discussed our methodology with attorneys from the Contract Law Division of the
Office of General Counsel. The attorneys agreed that these procurement actions do pose a
potential risk to the government and that consideration should be given to amending NIST’s
internal legal review guidelines to specifically include Federal Supply Schedule and indefinite
delivery and indefinite quantity orders.

We found 37 instances, including 28 in fiscal year 2002 and 9 in fiscal year 2004, where
contracts that should have been submitted for legal review were not. Of this amount there were
10 orders amounting to $5.5 million placed against blanket purchase authorizations or indefinite
delivery and indefinite quantity contracts. We found that of the fiscal year 2004 competitively
awarded contracts, five purchase orders were issued under the Federal Supply Schedules. The
orders were for services ranging from $210,000 (plus four unpriced option years that could
increase the total price by $840,000 based on the initial year’s cost), up to $524,313. In the
sampled actions from fiscal year 2002, there were three delivery orders for services placed
against indefinite delivery and indefinite quantity contracts that had been awarded competitively
under simplified acquisition or negotiated contracting procedures totaling $271,200, $440,000
and $768,957. The $440,000 order was modified and grew to $734,000 within 4 months. None
of these contract actions were referred for legal review, and, as a result, the government’s
interests may not have been protected. Although NIST has made improvements in referring
contract actions for legal review, more remains to be done.




15
  See pages 17 and 18 for two examples of orders placed against Federal Supply Schedules that involved
questionable performance periods and large contract amounts where legal reviews were not obtained.


                                                       13

 U.S. Department of Commerce                                                                              BSD-16656-5-XXXX

 Office of Inspector General                                                                                  September 2005




                                         Table 3: Legal Review Referrals
Acquisition Method      Competed        Competed – No       Noncompetitive         NonCompetitive       Total           Total
                        Requiring       Review              Requiring Review       but No Review        Requiring       Contracts
                        Review          Conducted                                  Conducted            Review          With No
                                                                                                                        Review
                                                                                                                        Conducted
Federal Supply
Schedules
 FY 2002: Number                    4                 4                       18                  15             22                19
            Amount        $12,085,086       $12,085,086               $6,256,715          $5,298,407    $18,341,801       $17,383,493

 FY 2004: Number                    6                 5                       3                    2              9                 7
          Amount           21,774,445         1,774,445                 992,681              831,416     22,767,126         2,605,791
8a
 FY 2002: Number                    1                1                         7                   2              8                 3
          Amount              425,248          425,248                 6,935,947             514,487      7,361,195           939,735

 FY 2004: Number                    1                   0                      4                   1              5                 1
          Amount            3,500,000                   0              1,331,091             138,000      4,831,091           138,000
Mandatory Source
 FY 2002: Number                    0                   0                     1                     0            1                  0
          Amount                    0                   0               102,466                     0      102,466                  0

 FY 2004: Number                    0                   0                      0                    0               0               0
           Amount                   0                   0                      0                    0               0               0
Simplified/Negotiated
 FY 2002: Number                   16                 4                       18                   2             34                 6
           Amount          16,466,425         1,480,157                4,636,221             609,927     21,102,646         2,090,084

 FY 2004: Number                    1                1                        2                     0            3                  1
           Amount             512,563          512,563                  455,486                     0      968,049            512,563
Total by year:
 FY 2002: Number                   21                 9                       44                  19             65                28
           Amount          28,976,759        13,990,491               17,931,349           6,422,821     46,908,108        20,413,312

FY 2004: Number                     8                 6                      9                     3             17                 9
         Amount            25,787,008         2,287,008              2,779,258               969,346     28,566,266         3,256,354
Total:   Number                    29                15                     53                    22             82                37
         Amount           $54,763,767       $16,277,499            $20,710,607            $7,392,167    $75,474,374       $23,669,666


 Handling Legal Comments. NIST has no formal guidance for how contracting personnel should
 address legal comments on contract documents subject to review. In many instances, contracting
 staff responded to the legal comments in a memorandum prepared for the record and reviewed
 by the contracting officer. However, our review found the files rarely contained evidence of
 contracting staff working with commenting attorneys to resolve the issues identified in the legal
 review. Contracting staff should work with counsel to ensure that substantive legal issues are
 understood, addressed, and documented in the contract file.

 We discussed the legal review thresholds and resolution of legal comments with the
 Department’s Office of General Counsel, Contracts Law Division attorneys who agreed Federal
 Supply Schedule orders and task or delivery orders should be included in the Department’s legal
 review threshold criteria and subject to legal review but that there may be insufficient staff to do
 the job. The attorneys also stated that discussions between the acquisition staff and the Office of
 General Counsel attorneys would be very beneficial, as, in many instances, they do not know
 how their comments are handled until after contract award. As a result of our discussions, AMD
 is working with the Office of General Counsel to update NIST’s internal guidance for legal
 review criteria for Federal Supply Schedule orders as well as orders made under blanket
 purchase agreements and indefinite delivery and indefinite quantity contracts. Additionally, the


                                                                14

U.S. Department of Commerce                                                     BSD-16656-5-XXXX
Office of Inspector General                                                         September 2005

division director was agreeable to develop and implement a policy for resolving legal comments
on contract actions.

Past Performance Reviews Need to be Conducted and Documented

The 1994 Federal Acquisition Streamlining Act states that contracting officials should consider a
potential contractor’s past performance as an indicator of its likely performance under a new
contract arrangement. Additionally, the Federal Acquisition Regulation requires that past
performance be used for evaluating offers exceeding $100,000 in negotiated procurements, and
for acquisition of commercial items. Past performance is also a key consideration in making best
value selections under simplified acquisition procedures and when making purchases off the
Federal Supply Schedules. In essence, the contracting officer should consider past performance
in evaluating offers for nearly all types of acquisitions. In May 2000, the Office of Federal
Procurement Policy (OFPP) issued “Best Practices for Collecting and Using Current and Past
Performance Information” to help agencies use past performance when evaluating offers.

Although the Federal Acquisition Regulation requires use of past performance when evaluating
offers, it does not contain specific guidance as to how a technical review team or contracting
staff is to evaluate or consider the contractor’s past performance. Additionally, neither the
Department nor NIST has provided such guidance. Our review showed that AMD does not
always use past performance in the evaluation process when making awards. When it does, its
methods for documenting and analyzing the information are inconsistent. Ultimately, the quality
of past performance evaluations depends on the expertise of the technical review teams and
contracting staff responsible for each contract awarded.

We found a total of 30 instances totaling $22,870,123 (23 totaling $20,915,536, from fiscal year
2002 and 7 totaling $1,954,587 from fiscal year 2004), out of the 92 awards included in the
sample, in which past performance reviews were deficient. For example, on a fiscal year 2002,
5-year competitive indefinite delivery and indefinite quantity multiple award contract with a life-
cycle cost not to exceed $3.75 million, past performance was one of five evaluation factors.
AMD established a technical review team to evaluate the proposals. However, the technical
review team members conducted their evaluations inconsistently: they did not gather the same
information or obtain all the details needed to adequately assess each company’s performance on
other projects. The information gathered related more to the company’s experience than to past
performance. The Office of General Counsel reviewed the evaluation results and reached the
same conclusion. It appears that the review team did not fully understand their responsibilities
for evaluating past performance or how to carry out those responsibilities. Additionally, on a
fiscal year 2004 contract in the amount of $125,000 awarded under the simplified acquisition
procedures, past performance was not considered during the award process. The solicitation did
not specify that past performance would be a consideration when making the award; therefore,
the technical evaluation team did not evaluate the past performance of the proposing contractors.
To meet the intent of the 1994 Federal Acquisition Streamlining Act and ensure consistency in
assessing past performance when evaluating offers, AMD should develop guidelines for
conducting these reviews and documenting the findings. The guidelines should consider the best
practices detailed in the OFPP publication. Additionally, training should be provided to




                                                15

U.S. Department of Commerce                                                    BSD-16656-5-XXXX
Office of Inspector General                                                        September 2005

technical review team members and contracting staff regarding how to use past performance
when evaluating offers.

Basis for Government Estimates Needs to Be Identified

Federal Acquisition Regulation, Part 7, requires agencies to plan ahead for acquisitions, which
includes preparing their own, independent estimate of the cost, normally determined through
market research. Independent government estimates provide contracting officers with an
unbiased and realistic cost against which to evaluate and negotiate contract proposals. Agencies
can use the estimates to reserve funds for a pending contract, to compare prices proposed by
offerors, and to determine whether price quotes are reasonable. Cost estimates can be as simple
as a quote from a catalog for common commercial products to more complex calculations that
include direct labor costs, overhead rates, profit, etc., for a support service or construction
project. As noted earlier, good market research is key to developing a strong, credible estimate.
But whether using a complex calculation or catalog pricing to develop the government estimate,
the contracting officer is responsible for determining and documenting its validity.

Neither the Department nor NIST has specific guidance on how program offices are to prepare
independent government estimates. Though contracts in our sample contained government
estimates, only those for construction-type requirements were accompanied by supporting
documentation; estimates for other supplies and services were not. Purchase requests for
commercial items did not always note how the estimate was derived−whether it was from a
catalog or from market research−and AMD did not clarify the source of the estimate. A
government estimate should be independent so that it may be used to assess the reasonableness
of the contractor’s quote or offer. As such, a quote from a contractor cannot constitute a
government estimate. However, we found 14 instances totaling $3,245,910 where the program
office inserted a government estimate on the purchase request that was the same as an attached
vendor quote. Of this number, there were11 instances totaling $2,699,840 where the government
estimates accompanying purchase requests for supplies or services precisely matched the amount
of the contractor’s proposal and the resulting contract award. For example, a sole-source
purchase request dated May 15, 2002, had a government estimate of $200,000. Accompanying
the purchase request was the contractor’s quote, dated May 13, 2002, in the amount of $200,000.
The contract was subsequently awarded in the same amount, $200,000, under simplified
acquisition procedures. The file documentation revealed that the program office did not conduct
market research and did not prepare an independent government cost estimate.

The independent government cost estimate is key to sound acquisition processes. However,
NIST program staff does not have guidelines for preparing cost estimates, and, according to the
AMD director, may therefore not know how to effectively develop them. Additionally, an
Office of General Counsel, Contracts Law Division attorney has provided legal comments during
review of contract actions that program officials be counseled that they are not to obtain formal
quotes or proposals from vendors. AMD should issue guidelines for determining independent
government estimates for both simple and complex acquisitions, and train program officials and
contracting staff in how to apply the guidelines.




                                               16

U.S. Department of Commerce                                                    BSD-16656-5-XXXX
Office of Inspector General                                                        September 2005

III. UNAUTHORIZED PROCUREMENTS SHOULD BE ELIMINATED

From our discussions with team leaders in AMD and our review of the unauthorized
procurement log maintained by the division, we determined that unauthorized procurements were
a problem at NIST, and that unnecessary division and Office of General Counsel time was used
approving (i.e., ratifying) them after the fact. Ratification, as defined by Federal Acquisition
Regulation, Subpart 1.602-3 and Commerce Acquisition Letter No. 30, is the act of approving an
unauthorized commitment of funds by an official who has the authority to do so. An
unauthorized commitment, as defined in the same subchapter of the regulation, is an agreement
that is not binding solely because the government representative who made it lacked the
authority to enter into the agreement on the government’s behalf. Acquisition Letter No. 30 and
NIST Administrative Manual Subchapter 2.03 require the responsible program official who
made an unauthorized commitment to submit a memorandum explaining the circumstances and
requesting approval to the Head of the Contracting Office, who will either approve or reject the
ratification request. Every unauthorized procurement, regardless of the amount, is subject to this
process and each action must receive legal review by the Office of General Counsel. According
to Subpart 1.602-1, only contracting officers have authority to enter into contracts and the CO
must ensure that all requirements of law, executive orders, regulations, and all other applicable
procedures have been met.

In fiscal year 2002, NIST processed 46 unauthorized procurement actions totaling $412,065
based on submitted purchase orders, and from January through September 2004, NIST processed
28 such actions totaling $1,071,143—a total of 74 actions. Although the number of actions
decreased in FY 2004, the dollar value of the actions increased by $659,078. The majority of the
individual unauthorized procurement actions were below $100,000 and for various supplies and
services including lecture fees, periodicals, maintenance services, and ad placements. We did
identify four actions that exceeded $100,000. One of these actions was included in our audit
sample: this action, in the amount of $205,904, was for renewal of web access to scientific
publications that should have been in place by January 1, 2004. The service had been provided
for 7 years and required annual reauthorization; however, the agency failed to renew prior to the
December 31, 2003 expiration date. The web provider continued to make the web service
available and the program office accepted the services, without alerting the contracting officer.
The request for ratification to cover the unauthorized procurement of services provided
beginning January 1, 2004, was forwarded to AMD on April 12, 2004—4 1/2 months after the
expired contract ended. While agency personnel followed proper procedures to process this
ratification, the unauthorized procurement could have been avoided if adequate planning and
good management practices were in place at the program level.

From our audit sample, we also found several fiscal year 2002 orders placed under Federal
Supply Schedules that were signed after the period of performance began, creating a situation
where the government was receiving services without a valid contract in place. Additionally, the
required legal review was not conducted. The questionable orders are as follows:

   •	 Copier equipment and maintenance services. An order was placed against a blanket
      purchasing agreement on December 18, 2001, in the amount of $374,763; however, the
      period of performance began October 1, 2001, almost 3 months prior to the award date.



                                               17

U.S. Department of Commerce                                                     BSD-16656-5-XXXX

Office of Inspector General                                                         September 2005


       The company provided services during this period. The blanket purchasing agreement,
       signed December 6, 2001, with a $1.5 million ceiling over 5 years, was sole-source citing
       the “one responsible source” exception.

   •	 Telephone services. An order was placed against a blanket purchasing agreement on
      January 25, 2002, in the amount of $1,678,000, 3 months after the period of performance
      began on October 1, 2001. The company provided services during this period. The
      blanket purchasing agreement was sole-source, citing the “one responsible source”
      exception. It was signed on January 23, 2002, having a $6,390,000 ceiling over a 5-year
      period.

We discussed these contract actions with the AMD director, who stated that she did not consider
them to be unauthorized because the division knew about the requirements but did not process
the orders in a timely manner. She added that, when the copier award was made, the division
was trying to consolidate the agency’s requirements for copier maintenance and was awaiting
revised Federal Supply Schedule pricing for the services, which was not available until several
months into the new fiscal year. These factors slowed NIST’s ability to award a contract. The
director stated that the contractor knew it was working without a contract, and that NIST made
no payments to the contractor until the contract was signed. As for the phone system order, the
division director stated that since the program office had submitted its purchase request on time,
she did not consider this order to be unauthorized, even though the division had not processed it
until after performance began.

We recognize the agency’s efforts to consolidate requirements; however, a signed purchase
request from the program office does not create a contractual relationship. Additionally, the
government cannot accept voluntary services from a contractor, and a purchase order should not
be dated to include performance periods not initially covered by a signed agreement. Passive
authorization may have existed in the above-mentioned orders where the contracting officer
allowed the vendor to proceed; however, the services were unauthorized because no binding
contractual agreement was in place prior to the services being provided. As a result, the 3-month
period of performance prior to the effective date on each order is subject to ratification. The
Office of General Counsel, Contract Law Division attorney agreed with this position.

We did not conduct an in-depth review of all ratifications that occurred in the timeframe covered
by our audit; however, we did address the problem with AMD managers and the Office of
General Counsel. The division managers stated that they discuss unauthorized procurements at
various training sessions for program officials stressing that these procurements should not take
place. Division managers stated that they have seen a decline in the number of ratification
requests for fiscal year 2004; however, as noted above, the dollar value of the ratification
requests increased. The division managers also stated that they discuss unauthorized
procurements with the offices requesting the ratifications and ensure that all ratification packages
are properly supported. However, the Office of General Counsel’s attorney stated that
ratifications are a continuing problem, causing the office to direct its limited resources toward
the required legal review of them and taking away time that could be devoted to the day-to-day
contracting activities at NIST. Additionally, the attorney stated that a binding contractual




                                                18

U.S. Department of Commerce                                                     BSD-16656-5-XXXX
Office of Inspector General                                                         September 2005

agreement must be in place in order for the government to accept supplies or services and that
absent such an agreement, an unauthorized procurement exists subject to ratification procedures.

Unauthorized purchases and subsequent ratifications are serious matters and this practice should
be discontinued immediately. NIST’s leadership must ensure that all NIST employees are aware
that unauthorized procurements are not acceptable and that, if appropriate, action is taken against
employees who make unauthorized procurements. Additionally, AMD should be required to
conduct regular training sessions for program personnel designed to further the decrease in
unauthorized procurements and ratifications. The division should carefully review all ratification
requests and ensure that they are properly supported. Additionally, the division should explore
the use of contractual tools, such as options, modifications, and, if necessary, letter contracts to
ensure that supplies and services provided by contractors to NIST are provided under legal
contractual agreements.

IV. 	A SYSTEM FOR ENSURING ACQUISITON STAFF ARE TRAINED NEEDS TO
     BE ESTABLISHED

The Department of Commerce Acquisition Career Management Program, outlined in Commerce
Acquisition Manual (Section 1301.6), implements the Office of Federal Procurement Policy’s
Policy Letter No. 97-01, dated September 12, 1997, on Procurement System Education, Training
and Experience Requirements for Acquisition Personnel. The Career Management Program was
designed to provide Commerce acquisition employees with the knowledge, skills, and abilities to
do their work. It identifies critical skills, mandatory and recommended training courses
associated with the contracting series GS-1102, -1105, and -1106, and requires designated
points-of-contact at the bureaus to provide timely updates of completed training to the
Department’s Office of Acquisition Management.

The Career Management Program established three levels within the GS-1102 series and
identified mandatory training for each level. After the mandatory training is completed, 40 hours
of skills currency training and continuing education is required every 2 years. The Career
Management Program established one level for the GS-1105 and -1106 series with 40 hours of
mandatory training in simplified acquisitions and 24 hours of skills currency training and
continuing education every 2 years.

The training point-of-contact in NIST’s Acquisition Policy and Analysis Branch reports
periodically to the Office of Acquisition Management on training completed by NIST
contracting staff. She provided us with the log she maintains to record training completed by
contracting staff during fiscal year 2004, from which she compiles the Acquisition Management
Division’s reports to the Department’s Office of Acquisition Management. However, she stated
that she is not provided copies of training certifications to support the information contained in
the training log.

To verify the information in the training log, we met with the AMD director, who stated that
supporting documentation other than the training log is not centrally maintained, but that the
individuals attending training maintained their own training certificates. The division director
instructed division staff to forward any training certificates they had to us. We compared the



                                                19

U.S. Department of Commerce                                                     BSD-16656-5-XXXX
Office of Inspector General                                                         September 2005

training log information for 22 GS-1102 (contracting officer/specialist) and 8 GS-1105
(purchasing agent) to the certificates the staff provided, but were unable to fully verify any staff
member’s training because of discrepancies between training hours recorded and documentation
provided. Additionally, several certificates did not show the name of the training facility or have
the trainer’s official signature, and there was no indication that supervisors had reviewed the
certificates.

During discussions with the division director, we requested to see the written procedures used for
managing the training program; however, the director reported that there are no written
procedures in place. She stated that she is aware that the division is not following the provisions
of the Commerce Administrative Manual 1301.6, part 2.3.2.3, which requires (1) training
participants to submit proof of course completion to their supervisor, (2) supervisors to record
this information, and (3) participants to maintain copies of all certificates for their records.
However, the director stated that she would take action to comply with Section 1301.6 of the
Commerce Administrative Manual.

While AMD staff is clearly attending training, there is no system in place to document and verify
completed training. By establishing procedures for documenting and verifying training, NIST
will be able to ensure that staff meets the training requirements.

Contracting Officer Representatives Training

During our review of the acquisition staff training, we also reviewed the training records for the
contracting officer representatives assigned to the 20 contract awards from the fiscal year 2004
sample. Commerce Acquisition Manual 1301.67 sets out the training program for the
Department’s contracting officer representatives. NIST maintains a system independent of
training for acquisition staff that tracks the training requirements and completed course work for
the contracting officer representatives. We found that the representatives had received the
training required by Commerce Administrative Manual Part 1301.67, and that NIST has an
adequate system in place to identify and track the training.

Recommendations

We recommend that the NIST Director require that the Director, Acquisition Management
Division, take the following actions to improve agency procurement activities.

   1.	 Compete acquisitions whenever possible to fully comply with the Competition in
       Contracting Act of 1984, and provide training to program officials and contracting staff
       regarding the use of competition.

   2.	 Minimize sole-source procurements by ensuring that the required justification form, CD
       492, Justification for Other Than Full and Open Competition, is completed and
       adequately documented, and provide training to program officials on how to adequately
       justify a procurement when using other than full and open competition.




                                                20

U.S. Department of Commerce                                                    BSD-16656-5-XXXX
Office of Inspector General                                                        September 2005

   3.	 Revise market research guidelines and provide training to help program personnel 

       conduct effective market analysis. 


   4.	 Work with the Office of General Counsel, Contract Law Division to (1) consider
       developing legal review criteria for General Services Administration’s Federal Supply
       Schedule orders, and orders placed on Blanket Purchase and Ordering Agreements, and
       on Indefinite Delivery or Indefinite Quantity contracts; and (2) develop and implement a
       policy for resolving legal comments on contract actions.

   5.	 Develop procedures for conducting and documenting past performance reviews, using the
       Office of Federal Procurement Policy’s guidebook as a reference and provide training to
       program officials and contracting staff.

   6.	 Develop procedures for preparing independent government estimates for the various
       types of acquisitions and provide training to program officials and contracting staff.

   7.	 Establish and implement an aggressive campaign to eliminate unauthorized procurement
       actions through training sessions, communication efforts, and establishing responsibility.

   8.	 Develop procedures for managing, documenting, and verifying training for acquisition
       staff to ensure compliance with requirements detailed in Section 1301.6 of the Commerce
       Acquisition Manual.

We also recommend that the NIST Director ensure that program managers actively support
AMD’s initiatives to improve agency procurement activities, and that NIST managers adequately
prepare annual spending plans for fiscal year 2005 and quarterly updates to help the agency
provide more responsive, effective, and efficient acquisition services and ensure compliance with
federal regulations.




                                               21

U.S. Department of Commerce                                                            BSD-16656-5-XXXX
Office of Inspector General                                                                September 2005



                                                                                            APPENDIX I
                                              Table of Services



                      THE PROCESS                                      FORMS

          Acquisition Deadlines
                                                       JOFOC (CD-492)

          Acquisition Process Flowchart                Market Research Report

          Acquisition Seminar - Management

          Update Series

          Business Cards                               Online Administration Forms For

                                                           •   Certification for Services (NIST
              •   Business Card Request                        1082)
              •   Business Card Policy
              •   Adman Purchase of Business Cards



          Central Contractor Registration
          Notification

          Checklist of Required Forms                  Past Performance Report

          Competition Thresholds                       Small Business Set Aside (CD

                                                       570)

          CSTARS Information                           Small Business Set Aside (CD-570)

                                                       Instructions

          Equipment Loans                              COTR INFORMATION

          Executive summary of NIST Acquisition        Classes/Sources for Training
          Process

          Frequently Asked Questions                   COTR Program

          Guidelines for Preparing a Statement of      COTR Reports
          Work

          Interagency Agreements                       Procurement Integrity Requirements

          Lecture Fees                                 Technical Panel Do's & Don'ts

          Lecture Fee Chart                            OTHER RESOURCES




                                                     1

U.S. Department of Commerce                                                            BSD-16656-5-XXXX
Office of Inspector General                                                                September 2005


             Priority Sources of Supply                Contract's External Web Page

             Ratification of Unauthorized              Service Contracting Considerations
             Procurements

             Required Clearances                       SEWP & Other GWACs

             Sole Source Procurements                  Small Purchase Small Business Set-
                                                       Aside Program

             Tips to Accelerate the Process            8(a) Program Guidance

             OTHER SERVICES

             Bankcard/BPA Program

             COMMITS Program

             Concept of Operations (CONOPS)

             Federal Procurement Related Sites

             GSA Advantage

             GSA Schedule E-Library




Page Updated: March 1, 2004
Source: NIST Acquisition Management Division intranet web page http://www-i.nist.gov/admin




                                                     2

U.S. Department of Commerce        BSD-16656-5-XXXX

Office of Inspector General            September 2005





                              1

